                  Initial Results of the Fiscal Year 2004
                Earned Income Tax Credit Concept Tests
                Provide Insight on Ways Taxpayer Burden
                     Can Be Reduced in Future Tests

                                   October 2004

                       Reference Number: 2005-40-006




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                          DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 October 27, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                       Gordon C. Milbourn III
                                  Acting Deputy Inspector General for Audit

      SUBJECT:                    Final Audit Report - Initial Results of the Fiscal Year 2004
                                  Earned Income Tax Credit Concept Tests Provide Insight on
                                  Ways Taxpayer Burden Can Be Reduced in Future Tests
                                  (Audit # 200440017)


      This report presents the results of our review of the processing of tax returns in the
      Internal Revenue Service’s (IRS) Earned Income Tax Credit (EITC) concept tests. The
      overall objective of this review was to determine whether tax returns included in the IRS’
      EITC concept tests were processed accurately. This is the fourth in a series of audits
      we have conducted to monitor the IRS’ testing of its long-term EITC vision.1 This audit
      focused on the certification of the qualifying child residency and filing status tests.
      In summary, the IRS closely monitored the implementation of the concept tests. Steps
      were taken to assess whether policies and procedures were being timely, accurately,
      and consistently followed. These monitoring efforts allowed the IRS to identify potential
      problems and take corrective action before the results of the tests were adversely
      affected. The success of the IRS’ concept tests also depends in large part on its ability
      to properly identify the taxpayers in the tests, hold and/or release the proper amount of
      EITC-related refunds, and forward the tax returns to the proper IRS function for
      validation. These key processes were functioning properly. In addition, the IRS was
      consistently accepting taxpayer documentation and making accurate validation
      decisions.


      1
       Management Controls Over the Proof of Concept Test of Earned Income Tax Credit Certification Need to Be
      Improved (Reference Number 2004-40-032, dated December 2003), The Risk of Inaccurate Computer Changes Can
      Be Reduced in Future Tests of the Earned Income Tax Credit (Reference Number 2004-40-089, dated April 2004),
      and The Statistical Sampling Method Used in the Earned Income Tax Credit Proof of Concept Test Appears Valid
      (Reference Number 2004-40-100, dated May 2004).
                                               2

While the IRS properly handled and processed the tax returns included in the concept
tests, some improvements can be made to future tests to reduce unnecessary burden
on taxpayers. Unnecessary burden is any burden a taxpayer in the test experiences
that is not inherent to participating in the tests. A review of a statistical sample of
379 taxpayers in the qualifying child residency and filing status tests showed that the
IRS did not timely respond to taxpayers’ replies to IRS letters for 47 (12 percent) of the
379 taxpayers. Information gathered during the tests about why the goal was not met
will provide the IRS with valuable data about the feasibility of responding to taxpayers
within 30 days and identify ways returns can be worked more timely to ensure taxpayer
burden is reduced as much as possible.
In addition, an analysis of a statistical sample of 242 taxpayers in the filing status test
indicated the IRS has additional internal data that could be used to modify the selection
of taxpayers for future filing status tests. Our analysis indicated IRS information
supported the taxpayer’s filing status for 82 (34 percent) of the 242 taxpayers. Using
internal IRS address and filing history data when selecting taxpayers for future filing
status tests could significantly reduce burden for taxpayers claiming the EITC by helping
to ensure only those taxpayers with the highest risk of noncompliance are subjected to
the tests.
The IRS designed the tests using available information in an effort to include only those
taxpayers most likely to have an error, and we agree that the burden experienced by
taxpayers in the current concept tests was not preventable. The IRS’ analysis of the
Fiscal Year (FY) 2004 concept tests, along with the insights provided through our audit,
will provide information the IRS can use to reduce taxpayer burden in future concept
tests.
We recommended the Commissioner, Wage and Investment Division, ensure the
Director, EITC, incorporates information gathered during the FY 2004 qualifying child
residency and filing status concept tests into the planning and design of future EITC
concept tests. Information related to increased or unnecessary burden should be used
to ensure burden on taxpayers included in those tests is reduced as much as possible.
Managements’ Response: The IRS agreed with our recommendation and indicated it
has always planned to use what it learned from the first tests to improve future EITC
initiatives. The IRS has contracted with an independent research firm to conduct an
in-depth analysis of the qualifying child residency certification test. It will use the results
of this analysis, as well as its internal analyses, to improve the design, including case
selection, of future EITC tests. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
      Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests




                                                  Table of Contents


Background ............................................................................................... Page 1
Returns Were Properly Identified for Processing and Claims
Were Properly Validated ........................................................................... Page 4
Online Monitoring Helped Identify and Correct Problems
Before They Affected the Outcome of the Tests ....................................... Page 4
Fiscal Year 2004 Test Results Can Be Used to Reduce
Taxpayer Burden in Future Tests.............................................................. Page 5
         Recommendation 1 ........................................................................Page 10

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures............................................................ Page 16
Appendix V – Earned Income Tax Credit Rules for
Tax Year 2003........................................................................................... Page 18
Appendix VI – Filing Requirements for Single and
Head of Household Filing Statuses ........................................................... Page 19
Appendix VII – Management’s Response to the Draft Report ................... Page 20
     Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
       Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                 The Earned Income Tax Credit (EITC) is a refundable credit
Background
                                 designed to help move low-income taxpayers above the
                                 poverty level. However, the Internal Revenue Service (IRS)
                                 has historically experienced compliance problems with this
                                 credit. The IRS estimated that roughly 27 to 32 percent of
                                 the $31 billion in EITC claimed on Tax Year (TY) 1999
                                 returns should not have been paid.
                                 A joint Department of the Treasury and IRS task force,
                                 formed in February 2002 to study the administration of the
                                 EITC, offered suggestions for improving EITC compliance.
                                 The IRS compiled these suggestions into a Concept of
                                 Operations outlining its future vision for the EITC Program.
                                 The first step in implementing this long-term vision is to test
                                 several of the vision’s key concepts. Beginning in
                                 Fiscal Year (FY) 2004, the IRS tested three of the main
                                 concepts contained in its long-term vision.
                                 •   Certification of Qualifying Child Residency
                                     Requirements.
                                 •   Verification of Filing Status.
                                 •   Verification of Income.
                                 This is the fourth in a series of audits we have conducted to
                                 monitor the IRS’ testing of its long-term EITC vision.1 This
                                 audit focused on tests of the certification of the qualifying
                                 child residency requirements and the verification of filing
                                 status. We did not conduct reviews of the IRS’ test to verify
                                 taxpayers’ income because the test did not involve special
                                 processing of TY 2003 tax returns. We plan to conduct a
                                 review of that test as part of our FY 2005 audit coverage.
                                 Certification of qualifying child residency requirements
                                 The IRS envisions a prefiling certification program in which
                                 certain taxpayers would be required to verify that the

                                 1
                                  Management Controls Over the Proof of Concept Test of Earned
                                 Income Tax Credit Certification Need to Be Improved (Reference
                                 Number 2004-40-032, dated December 2003), The Risk of Inaccurate
                                 Computer Changes Can Be Reduced in Future Tests of the Earned
                                 Income Tax Credit (Reference Number 2004-40-089, dated April 2004),
                                 and The Statistical Sampling Method Used in the Earned Income Tax
                                 Credit Proof of Concept Test Appears Valid (Reference Number
                                 2004-40-100, dated May 2004).
                                                                                             Page 1
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            child(ren) they are using to claim the EITC meet the EITC
                            qualifying child requirements. These requirements can be
                            found in Appendix V. The first test of the IRS’ certification
                            concept involved 25,000 taxpayers2 who were asked to
                            validate that the children they claimed for the EITC had
                            lived with them for over 6 months of Calendar Year 2003.
                            Taxpayers selected for the test were sent a letter in
                            December 2003 telling them they had been chosen to test a
                            new procedure. The letter explained the test and asked these
                            taxpayers to submit documentation to support the residency
                            requirements for any child(ren) claimed for the EITC when
                            they filed their TY 2003 returns. If a taxpayer submitted
                            documentation before his or her return was filed and the IRS
                            validated the residency requirements, the refund was issued
                            at the time the return was processed.
                            If the taxpayer either did not submit the requested
                            documents or submitted them with the return, the EITC
                            portion of the refund was held until the taxpayer’s claim
                            could be validated. In these cases, the IRS sent the taxpayer
                            a series of letters informing him or her that a portion of the
                            refund was being held and asking for documentation
                            showing that the child(ren) lived with the taxpayer for over
                            6 months.
                            Verification of filing status
                            One of the concerns raised in the IRS’ 1999 EITC
                            compliance study was with married taxpayers that
                            circumvented the EITC income or claim limitations by
                            incorrectly using the Head of Household or Single filing
                            status to increase the amount of the EITC they received.
                            The study showed that a portion of these taxpayers should
                            have filed using either the Married Filing Jointly or Married
                            Filing Separately filing status. Taxpayers who file Married
                            Filing Jointly are ineligible for the EITC if their combined
                            incomes exceed the EITC income limitation. The EITC is
                            not allowed for taxpayers who file Married Filing
                            Separately. The requirements for claiming the EITC in


                            2
                              The IRS reduced the number of taxpayers from the original volume of
                            25,000 for the FY 2004 test to exclude 313 taxpayers that no longer met
                            the IRS’ selection criteria.
                                                                                            Page 2
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            2003, including qualifying children and filing status, can be
                            found in Appendix V.
                            The IRS’ test to validate the filing status asked
                            36,000 taxpayers filing as Head of Household or Single to
                            provide documentation supporting their filing status. When
                            a taxpayer in the test filed a return using the Head of
                            Household or Single filing status, the IRS held the EITC
                            portion of the refund and sent a letter to the taxpayer. The
                            letter informed the taxpayer that the IRS might examine his
                            or her return for filing status, the EITC, or dependents. As
                            with the qualifying child residency test, the taxpayer was
                            sent a series of letters asking for documentation to support
                            the filing status used on the return.
                            In both the certification and filing status tests, the series of
                            letters sent to taxpayers was interrupted if the taxpayer
                            responded to the IRS at any time during the validation
                            process. If the documents provided were adequate to
                            support the taxpayer’s claim, the rest of the taxpayer’s
                            refund was released. If the taxpayer’s claim was not
                            supported, the IRS would contact the taxpayer for additional
                            information. If the taxpayer still could not support the
                            claim, the IRS disallowed the EITC, adjusted the return
                            accordingly, and notified the taxpayer of the change.
                            The IRS has informed us that the FY 2004 tests are the first
                            in a series of tests to refine its concepts for the EITC
                            Program. As such, it is important to note that information
                            gathered from these tests is valuable regardless of whether it
                            supports the IRS’ concept. The tests are providing the IRS
                            with information it currently does not have and will enhance
                            its ability to make sound decisions about the future of the
                            EITC Program.
                            This review was performed at the EITC Offices in
                            Washington, D.C., and Atlanta, Georgia, and the
                            Kansas City Compliance Site in Kansas City, Missouri,
                            during the period February through July 2004. The audit
                            was conducted in accordance with Government Auditing
                            Standards. Detailed information on our audit objective,
                            scope, and methodology is presented in Appendix I. Major
                            contributors to the report are listed in Appendix II.


                                                                                     Page 3
        Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
          Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                    The success of the IRS’ concept tests depends in large part
Returns Were Properly Identified
                                    on its ability to properly identify the taxpayers in the tests,
for Processing and Claims Were
                                    hold and/or release the proper amount of the EITC-related
Properly Validated
                                    refunds, and forward the tax returns to the proper IRS
                                    function for validation. These key processes were
                                    functioning properly in both the qualifying child(ren) and
                                    filing status tests. For example:
                                    •   The IRS properly notified taxpayers in December 2003
                                        that they would be part of the qualifying child residency
                                        test.
                                    •   Taxpayers were properly identified as their TY 2003
                                        returns were filed, allowing issuance of the notice that a
                                        portion of their refunds were being held.
                                    •   The portion of a taxpayer’s refund attributable to the
                                        EITC was being held properly, and the remaining refund
                                        was correctly being released to the taxpayer when the
                                        return was filed. In addition, the EITC portion of the
                                        refund was being properly released once the IRS
                                        determined the taxpayer’s EITC claim was supported.
                                    •   The IRS consistently accepted taxpayer supporting
                                        documentation, made accurate validation decisions, and
                                        accurately computed the proposed tax changes when
                                        necessary.
                                    To ensure proper implementation of the tests, the IRS
 Online Monitoring Helped
                                    EITC Office designed a plan to assess whether policies and
 Identify and Correct Problems
                                    procedures were being timely, accurately, and consistently
 Before They Affected the
                                    followed. Samples of taxpayers for each of the three tests
 Outcome of the Tests
                                    were selected and monitored as TY 2003 returns were filed
                                    and processed. In addition, the IRS Office of Research and
                                    EITC Certification Unit at the Kansas City Compliance Site
                                    closely monitored implementation to identify any potential
                                    problems.
                                    The IRS’ monitoring efforts allowed it to identify potential
                                    problems and take corrective action before the results of the
                                    tests were adversely affected. Examples of problems
                                    identified include:
                                    •   Taxpayer returns filed on paper that were part of the
                                        qualifying child residency test were not being properly
                                        coded during processing. Therefore, the returns and any
                                                                                              Page 4
        Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
          Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                        supporting documentation were not being sent to the
                                        EITC Certification Unit for review. The IRS took
                                        additional steps to identify and forward all paper returns
                                        to the Unit.
                                    •   Taxpayers in the qualifying child residency test who
                                        filed Married Filing Jointly as the spouse or secondary
                                        taxpayer on the return were not being properly identified
                                        for processing. The IRS’ analysis showed that only a
                                        minimal number of taxpayers had been affected when it
                                        discovered the condition and took actions to resolve the
                                        problem.
                                    •   The IRS identified discrepancies between the two main
                                        databases it is using to capture the results of the tests. It
                                        has taken steps to compare these two databases and
                                        correct any discrepancies before the final analysis of the
                                        test results begins.
                                    Overall, the returns in the certification of qualifying child
                                    residency requirements and the filing status tests were
                                    properly identified for processing. In addition, refunds were
                                    properly held and released. However, some improvements
                                    can be made to future tests to reduce unnecessary burden on
                                    taxpayers. Unnecessary burden is any burden a taxpayer in
                                    the tests experiences that is not inherent to participating in
                                    the tests.
                                    The long-term goal of the EITC Program is to increase
Fiscal Year 2004 Test Results Can
                                    compliance without adversely affecting participation or
Be Used to Reduce Taxpayer
                                    unduly increasing burden to taxpayers who claim the credit.
Burden in Future Tests
                                    As such, testing ways to reduce taxpayer burden is an
                                    integral part of the testing process. The IRS took steps to
                                    reduce the burden taxpayers in the FY 2004 tests would
                                    experience. It tested a very small portion of the total
                                    number of taxpayers that claim the EITC and held only
                                    those portions of the taxpayers’ refunds that were related to
                                    the credit.
                                    The test results will provide additional information and
                                    insight on ways future tests can be modified to further
                                    reduce or eliminate taxpayer burden. We made the
                                    following observations about how the information from the
                                    FY 2004 concept tests can be valuable in planning future
                                    tests of the IRS’ long-term vision of the EITC Program.
                                                                                              Page 5
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            Information about why responses were not provided to
                            taxpayers within the IRS’ goal for the FY 2004 tests can
                            provide insight on how to improve timeliness in future
                            tests
                            Once a taxpayer in either the certification or filing status test
                            filed his or her TY 2003 return, the taxpayer began
                            receiving a series of letters. These letters notified the
                            taxpayer that the EITC portion of his or her refund was
                            being held, notified the taxpayer of the possible tax
                            adjustment if the EITC was denied, and asked for
                            documentation to support either the qualifying child
                            residency requirement or the taxpayer’s filing status. We
                            found the IRS generally issued these letters timely.
                            However, the IRS did not always respond to the taxpayer
                            timely once documentation had been provided.
                            The IRS has an examination standard to respond to
                            taxpayers within 30 days of the receipt of a response to an
                            IRS letter or notice. We reviewed a statistical sample of
                            379 taxpayers from the certification and filing status tests.
                            The IRS did not respond to 47 (12 percent) of these
                            taxpayers within the 30-day standard.
                            Our analysis indicates these delays were attributable to two
                            conditions. First, 15 of the 47 taxpayers sent documentation
                            to the IRS before its examination reporting system became
                            functional for Calendar Year 2004. This system is used to
                            monitor IRS examination inventories and generate
                            correspondence to taxpayers. Second, the IRS did not use
                            the summary management reports available from its
                            examination reporting system to properly control its
                            inventory of test returns. Prior to early May 2004, the IRS
                            was using detailed inventory reports to monitor the receipt
                            and working of taxpayer replies to the various letters being
                            sent. This made it very difficult to identify trends, such as
                            aging inventory, and take actions to minimize the impact on
                            taxpayers. The IRS has since started using summary
                            management reports to monitor key aspects of its inventory
                            for these tests.
                            Delays in responding to taxpayers create an unnecessary
                            taxpayer burden. Taxpayers experience uncertainty not
                            knowing if the IRS has received submitted documentation.
                            In addition, delays in reviewing that documentation and
                                                                                      Page 6
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            providing responses to taxpayers increase the amount of
                            time they must wait to receive the remainder of their
                            refunds. As of April 30, 2004, the IRS had accepted the
                            documentation and closed the examinations without
                            modifying the taxpayers’ EITC claims in 18 of the 47 cases
                            we identified. These taxpayers had $44,540 in EITC held,
                            and the IRS took an average of 53 days to close these
                            examinations.
                            We discussed our concerns with the IRS. The IRS agreed
                            that reducing taxpayer burden was an important aspect of
                            the concept tests. However, the IRS stated that meeting the
                            30-day standard is not mandatory, and a case is not
                            considered untimely until 61 days have elapsed from the
                            date of the taxpayer’s reply.
                            One of the IRS Commissioner’s five-point EITC initiatives
                            is to minimize burden and enhance the quality of
                            communications with taxpayers by improving the existing
                            examination process. Information gathered during the tests
                            about why the 30-day standard was not met will provide the
                            IRS with valuable data about the feasibility of responding to
                            taxpayers within 30 days and identify ways returns can be
                            worked more timely to reduce taxpayer burden as much as
                            possible during the examination process. This information
                            should be used not only when making future decisions about
                            the EITC Program but also in planning future concept tests
                            of its long-term vision.
                            Should the IRS use the information related to timeliness of
                            responses to taxpayers in planning for its FY 2005 concept
                            tests, we estimate the IRS could prevent untimely responses
                            to 7,529 taxpayers in the tests. This estimate is based on the
                            12 percent exception rate in our analysis and assumes the
                            sample sizes selected for the FY 2005 tests are comparable
                            to those in the FY 2004 tests. Changes in sample sizes
                            would have an impact on the estimated number of taxpayers
                            affected.
                            Interim filing status test results indicate criteria used to
                            select taxpayers for future tests can be modified to
                            reduce taxpayer burden
                            The filing status test was designed to test the IRS’ concept
                            for reducing noncompliance among taxpayers who

                                                                                   Page 7
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            incorrectly file a tax return using the Head of Household or
                            Single filing status to increase their EITC. A 1999 IRS
                            study of EITC compliance indicated that approximately
                            $2 billion in EITC claims was incorrectly paid to Head of
                            Household and Single filers. These claims were attributable
                            to 1.1 million out of 15.2 million taxpayers who claimed the
                            EITC and used these two filing statuses.3 A description of
                            the filing status requirements for Head of Household and
                            Single can be found in Appendix VI.
                            The filing status test was designed to assist the IRS in
                            developing ways to effectively identify these taxpayers.
                            The IRS selected a small cross-section of taxpayers who had
                            claimed the EITC using the Head of Household or Single
                            filing status and for which IRS data indicated the taxpayers
                            might actually be married. Part of the test includes
                            determining if using third-party data would improve the
                            IRS’ ability to detect incorrect usage of filing statuses. The
                            test would also help the IRS validate the accuracy of its
                            internal taxpayer data.
                            While the filing status test was not complete at the time of
                            our audit, our analysis of a statistical sample of
                            242 taxpayers indicates that some portions of the IRS’
                            internal taxpayer data are likely valid and can be used to
                            modify the selection of taxpayers for future tests. Testing
                            the use of third-party data intended to validate and
                            supplement IRS information has yet to be started. As a
                            result, as the test progresses, additional information that
                            would further refine the IRS’ analysis and our observations
                            may come to light. However, based on our analysis, the IRS
                            can rely on its internal taxpayer address and filing history
                            information when selecting taxpayers for its FY 2005 filing
                            status test.
                            While the IRS’ address and filing history information
                            appears valid, analyzing only one piece of this information
                            would not adequately predict whether taxpayers are
                            claiming the correct filing status. Rather, an in-depth
                            analysis using all available information, including
                            third-party data and address and filing history information


                            3
                             EITC Taskforce, Final Executive Steering Committee Meeting,
                            June 28, 2002.
                                                                                           Page 8
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            on former spouses, would be necessary. For example,
                            information may show the former spouse has relocated to a
                            new address or has remarried.
                            Using internal IRS and third-party data when selecting
                            taxpayers for future filing status tests could significantly
                            reduce burden for taxpayers claiming the EITC by helping
                            to ensure only those with the highest risk of noncompliance
                            are subjected to the tests. Of the 242 taxpayers in our filing
                            status test sample, 167 were being examined by the IRS as
                            part of the test.4 We reviewed IRS data for the taxpayers in
                            the filing status test and their former spouses. Our analysis
                            indicated IRS information for 82 (34 percent) of the
                            242 taxpayers in our sample appeared to support the
                            taxpayer’s filing status. IRS examination results seem to
                            support our analysis. As of May 28, 2004, the IRS had
                            closed examinations on 44 of the 82 taxpayers we identified.
                            All 44 examinations were closed without an adjustment to
                            the taxpayer’s EITC. These 44 taxpayers had $79,166 in
                            EITC delayed for an average of 10 weeks. The remaining
                            38 taxpayers in our sample were still being examined at the
                            time we concluded our review. Their EITC claims totaled
                            $63,175.
                            In addition to having their EITC delayed, many of these
                            taxpayers received a letter from the IRS telling them the IRS
                            records show they may still be married, they are not eligible
                            for the EITC, and they owe additional taxes as a result. For
                            example, 1 taxpayer had EITC of over $1,400 held and was
                            told he or she would owe the IRS over $1,000 in additional
                            taxes unless he or she could show eligibility for the Single
                            or Head of Household status. Overall, 46 of the
                            82 taxpayers we identified were told they might owe
                            additional taxes totaling $23,333. While taxpayers were
                            allowed the opportunity to dispute the proposed increase in
                            tax by providing documentation supporting their filing
                            status, the anxiety these taxpayers may have experienced
                            could certainly be considered a burden. We estimate that
                            12,240 taxpayers filing Head of Household or Single and
                            claiming the EITC would not be included in the FY 2005
                            filing status test if the IRS chooses to use our observations


                            4
                                Returns filed and processed as of May 28, 2004.
                                                                                   Page 9
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
  Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                            in planning and designing the test. This estimate is based on
                            the 34 percent exception rate in our analysis and assumes
                            the sample size for the FY 2005 test is similar to that in the
                            FY 2004 test. Increasing or decreasing the sample size in
                            FY 2005 would have an impact on the estimated number of
                            taxpayers affected.
                            The IRS plans to carefully evaluate the results of this year’s
                            filing status test and use that information in designing the
                            FY 2005 test. However, the IRS reiterated that, although it
                            designed the sample selection criteria to reduce
                            unnecessarily subjecting taxpayers to the tests, the need to
                            validate its internal data may lead to some taxpayers
                            experiencing unnecessary burden in the current concept
                            tests. We understand and agree that the burden experienced
                            by taxpayers in the current concept tests was not preventable
                            given the IRS’ purpose for the tests. However, the IRS
                            should ensure it uses the information it gains from the tests,
                            along with our audit results, to prevent as much burden to
                            taxpayers as possible in future concept tests.

                            Recommendation

                            To avoid unnecessarily burdening taxpayers during future
                            EITC concept tests, the Commissioner, Wage and
                            Investment Division, should ensure:
                            1. The Director, EITC, incorporates information gathered
                               from the FY 2004 qualifying child residency and filing
                               status concept tests into the planning and design of
                               future EITC concept tests. Information related to
                               increased or unnecessary burden should be used to
                               ensure burden on taxpayers included in those tests is
                               reduced as much as possible.
                            Management’s Response: The IRS indicated it has always
                            planned to use what it learned from the first tests to improve
                            future EITC initiatives. The IRS has contracted with an
                            independent research firm to conduct an in-depth analysis of
                            the qualifying child residency certification test. It will use
                            the results of this analysis, as well as its internal analyses, to
                            improve the design, including case selection, of future EITC
                            tests.


                                                                                     Page 10
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether tax returns included in the Internal
Revenue Service’s (IRS) Earned Income Tax Credit (EITC) concept tests were processed
accurately.
Sampling Criteria
We selected a stratified statistical sample of 379 taxpayers as follows:
         •    We randomly selected 137 taxpayers from the 24,687 taxpayers in the qualifying
              child residency test (95 percent confidence level, 10 percent expected error rate, and
              + 5 percent precision).1
         •    We randomly selected 242 taxpayers from the 36,000 taxpayers in the filing status
              test (95 percent confidence level, 20 percent expected error rate, and + 5 percent
              precision).
Our expected error rates were based upon historical quality review information from the IRS
Office of Performance Excellence. These historical rates were adjusted upward to account for
the changes in the IRS work processes necessary to implement the concept tests and the results
of our planning for this review. The full statistical sample was not reviewed for all tests. We
used judgmental samples when initial testing indicated a full review may not be necessary or
when time and information constraints prevented us from reviewing all 379 taxpayers. Unless
otherwise noted, we selected our judgmental samples from our statistical sample of
379 taxpayers.
To accomplish our objective, we:
I.      Assessed whether the IRS’ efforts to monitor the EITC concept tests were sufficient to
        timely identify significant problems and take corrective actions when necessary. We
        reviewed the IRS EITC Office’s Functionality Assessment Plan to determine what areas
        would be monitored and the extent of those monitoring efforts. We also contacted the
        IRS EITC Certification Unit Manager and obtained results of the IRS’ internal quality
        reviews.
II.     Determined whether Tax Year (TY) 2003 returns filed by taxpayers in the qualifying
        child residency and filing status tests were processed properly. We reviewed the
        Integrated Data Retrieval System (IDRS),2 the Earned Income Credit Proof of Concept

1
  The IRS reduced the number of taxpayers from the original volume of 25,000 for the Fiscal Year 2004 test to
exclude 313 taxpayers that no longer met the IRS selection criteria.
2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 11
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

         (EICPC) database,3 and Report Generation Software (RGS) System4 data. We also
         obtained information from the IRS on the status of the tests on a regular basis.
         A. Determined whether taxpayer notices were issued correctly, returns were properly
            identified when filed, non-EITC portions of refunds were properly released, and
            EITC portions were refunded to taxpayers in those cases in which the IRS accepted
            the EITC claim for a judgmental sample of 50 taxpayers.5
         B. Verified whether any portion of the refund was held for a judgmental sample of
            10 taxpayers6 from the 313 taxpayers eliminated from the qualifying child residency
            test.7
III.     Determined whether TY 2003 returns filed by taxpayers in the qualifying child residency
         and filing status tests were being worked in the EITC Certification Unit according to
         established procedures. We reviewed the IDRS, the EICPC database, RGS data, and
         taxpayer and IRS examination documentation.
         A. Determined whether taxpayers were receiving the correct letters/correspondence and
            examinations were being worked timely for a statistical sample of 250 taxpayers.8
         B. Determined whether determinations regarding the residency of qualified children and
            filing status were consistent and proper for a judgmental sample of 105 taxpayers.9
         C. Validated the accuracy of the data in the RGS and the EICPC database for a
            judgmental sample of 209 taxpayers.10
         D. Determined whether credits or deductions other than the EITC claimed on taxpayers’
            returns were properly recalculated based upon the proposed filing status change to
            Married Filing Separately for a judgmental sample of 23 taxpayers11 in the filing
            status test.


3
  One of the databases the IRS is using to capture the results of its examinations for the qualifying child residency
and filing status concept tests.
4
  The RGS System is used by the IRS in the examination process to compute taxes, generate examination
correspondence and reports, and monitor Examination function inventories.
5
  The first 25 qualifying child residency taxpayers that had filed a return as of March 18, 2004. The first 25 filing
status taxpayers in the filing status test that had filed a return as of March 23, 2004.
6
  Selected starting with the first taxpayer and using an interval of 31.
7
  The IRS reduced the number of taxpayers from the original volume of 25,000 for the FY 2004 test to exclude
313 taxpayers that no longer met the IRS selection criteria.
8
  Taxpayers in the overall sample of 379 that had filed a return as of April 19, 2004, and claimed the EITC with a
qualifying child(ren).
9
  Taxpayers in the overall sample of 379 that had filed a return as of April 19, 2004, and claimed the EITC with a
qualifying child(ren), and IRS data indicated it had reviewed taxpayer documentation as of April 30, 2004.
10
   We randomly selected these taxpayers from our stratified statistical sample of 379 taxpayers.
11
   Taxpayers that had filed a return as of April 19, 2004, claimed the EITC with a qualifying child(ren), and claimed
at least one credit other than the EITC. We reviewed at least 10 cases with a particular credit or all cases if there
were less than 10. Some cases reviewed contained more than one credit.
                                                                                                            Page 12
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

IV.     Determined whether taxpayers in the qualifying child residency and filing status tests
        experienced unnecessary burden as part of the tests. We reviewed the IDRS and the
        EICPC database. We also reviewed the Income Tax Examination Changes
        (Form 4549-EZ) that were mailed to taxpayers.
        A. Determined whether information on the IDRS supported the taxpayer’s filing status
           for a statistical sample of 167 taxpayers12 in the filing status test.
        B. Determined whether abnormal or lengthy delays occurred between the IRS’
           acceptance of the taxpayer’s EITC claim and the release of the EITC portion of the
           refund for a statistical sample of 66 taxpayers.13




12
   Taxpayers who had filed returns that were processed as of May 28, 2004, had claimed the EITC with a qualifying
child(ren), and were being examined as part of the test.
13
   Taxpayers in the statistical sample of 379 that had had examinations closed as of April 30, 2004, without an
adjustment to the tax return.
                                                                                                         Page 13
      Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
       Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
John L. Hawkins, Lead Auditor
Kathleen A. Hughes, Lead Auditor
Sharon A. Buford, Senior Auditor
Karen C. Fulte, Senior Auditor
Areta G. Heard, Senior Auditor
Sharla J. Robinson, Senior Auditor
Sandra L. Hinton, Auditor




                                                                                         Page 14
      Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
       Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Earned Income Tax Credit Strategic Operations, Wage and Investment Division
SE:W:EITC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                        Page 15
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 7,529 taxpayers may not receive a timely reply from the
    Internal Revenue Service (IRS) when they respond to an IRS inquiry in the
    Fiscal Year (FY) 2005 Earned Income Tax Credit (EITC) concept tests (see page 5).
Methodology Used to Measure the Reported Benefit:
The IRS provided us with the total population of taxpayers it selected for the FY 2004 qualifying
child residency test (24,687 taxpayers) and the verification of filing status test
(36,000 taxpayers). Because we decided during our audit planning to project our audit
conclusions to each of the test populations and to the overall population of taxpayers in both
tests, we used a stratified random sampling method to select a statistical sample from each test
population.
We selected a statistical sample of 137 taxpayers from the total population of 24,687 taxpayers in
the qualifying child residency test.1 We determined that 90 of the 137 taxpayers had filed a Tax
Year (TY) 2003 return claiming the EITC with qualifying child(ren) as of April 19, 2004. We
determined that, as of April 30, 2004, the IRS had not responded to 18 of the 137 taxpayers
(a 13 percent actual error rate) within 30 days.2 When this error rate is applied to the expected
population for the FY 2005 qualifying child residency test, it is estimated that 3,209 taxpayers,
+ 5.62 percent, will be affected. The decrease in the precision from our original statistical
sample is because the actual error rate was higher than originally expected (13 percent versus
10 percent).
We selected a statistical sample of 242 taxpayers from the total population of 36,000 in the filing
status test. We determined that 160 of the 242 taxpayers had filed a TY 2003 return claiming the
EITC with qualifying child(ren) as of April 19, 2004. We determined that, as of April 30, 2004,
the IRS had not responded to 29 of the 242 taxpayers (a 12 percent actual error rate) within
30 days. When this error rate is applied to the expected population for the filing status test, it is
estimated that 4,320 taxpayers, + 4.08 percent, will be affected. The increase in the precision
from our original statistical sample is because the actual error rate was lower than originally
expected (12 percent versus 20 percent).

1
  The IRS reduced the number of taxpayers from the original volume of 25,000 for the FY 2004 test to exclude
313 taxpayers that no longer met the IRS selection criteria.
2
  The IRS has an examination standard to respond to a taxpayer’s reply within 30 days of the receipt of that reply.
                                                                                                             Page 16
        Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
         Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

Combining the results from both of our statistical samples, it is projected that 7,529 taxpayers
may receive untimely responses from the IRS during the FY 2005 EITC concept tests. This
estimate is based on an overall 12 percent error rate in our analysis and assumes that the sample
sizes selected for the FY 2005 tests are comparable to those in the FY 2004 tests. Changes in
sample sizes would have an impact on the estimated number of taxpayers affected.3
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 12,240 taxpayers should not be subjected to the FY 2005 filing
    status test (see page 5).
Methodology Used to Measure the Reported Benefit:
First, we selected a stratified statistical sample (described above) from data provided by the IRS.
From our statistical sample of 242 taxpayers in the filing status concept test, we determined that
167 of the 242 taxpayers who had filed a TY 2003 return claiming the EITC with qualifying
child(ren) as of May 28, 2004, were being examined as part of the test. We determined that the
IRS’ internal information would have likely supported the filing status claimed on the return for
82 of the 242 taxpayers (a 34 percent actual error rate). We estimate that 12,240 taxpayers
would not be included in the FY 2005 filing status test if the IRS uses this information when
selecting its test sample. This estimate is based on the overall error rate of 34 percent in our
analysis and assumes that the sample size selected for the FY 2005 test is comparable to that in
the FY 2004 test. Changes in sample size would have an impact on the estimated number of
taxpayers affected.4 The precision for this estimate is + 5.95 percent. The decrease in the
precision from our original statistical sample is due to the fact that our actual error rate was much
higher than expected (34 versus 20 percent).




3
  The IRS has indicated that it plans to test roughly the same number of taxpayers in FY 2005 as it tested in
FY 2004. Therefore, our outcome is based on the assumption that the IRS will select the same size taxpayer
population for both the qualifying child residency test (24,687) and the filing status test (36,000) that it selected for
the FY 2004 tests.
4
  This assumes that the IRS will select the same size taxpayer population (36,000) that it selected for the
FY 2004 test.
                                                                                                                 Page 17
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                                                   Appendix V


                      Earned Income Tax Credit Rules for Tax Year 2003

Below is a general description of the qualifications taxpayers must meet to be eligible for the
Earned Income Tax Credit (EITC). A detailed description of these rules can be found in the
Internal Revenue Service publication Earned Income Credit (EIC) (Publication 596).
Everyone must meet all of the following rules:
   • You must have a valid Social Security Number.
   • Your filing status cannot be “Married Filing Separately.”
   • You must be a United States citizen or resident alien all year.
   • You cannot file Foreign Earned Income (Form 2555) or Foreign Earned Income
      Exclusion (Form 2555-EZ).
   • Your investment income must be $2,600 or less.
   • You must have earned income.
Rules to meet if you have a qualifying child (must meet all):
   • Your child must meet the relationship, age, and residency tests.
   • Your qualifying child cannot be used by more than one person to claim the EITC.
   • You cannot be a qualifying child of another person.
Rules to meet if you do not have a qualifying child (must meet all):
   • You must be at least age 25 but under age 65.
   • You cannot be the dependent of another person.
   • You cannot be a qualifying child of another person.
   • You must have lived in the United States more than one-half of the year.
Figuring and claiming the EITC (must meet both rules):
   • Your adjusted gross income (AGI)1 must be less than:
       o $33,692 ($34,692 for Married Filing Jointly) if you have more than 1 qualifying
          child.
       o $29,666 ($30,666 for Married Filing Jointly) if you have 1 qualifying child.
       o $11,230 ($12,230 for Married Filing Jointly) if you do not have a qualifying child.
   • Your earned income must be less than:
       o $33,692 ($34,692 for Married Filing Jointly) if you have more than 1 qualifying
          child.
       o $29,666 ($30,666 for Married Filing Jointly) if you have 1 qualifying child.
       o $11,230 ($12,230 for Married Filing Jointly) if you do not have a qualifying child.


1
 AGI is a taxpayer’s gross income for the year adjusted for certain exclusions from income provided for in the
Internal Revenue Code.
                                                                                                           Page 18
       Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
        Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                                      Appendix VI


       Filing Requirements for Single and Head of Household Filing Statuses

Below is a general description of the filing requirements for taxpayers to file as either Single or
Head of Household. A detailed description of these requirements can be found in the Internal
Revenue Service publication Exemptions, Standard Deduction, and Filing Information
(Publication 501).
Taxpayers can file as Single if on the last day of the tax year they are either:
   •    Unmarried.
   •    Legally separated from their spouse under a divorce or separate maintenance decree.
Some single taxpayers may also qualify for another filing status, such as Head of Household, that
would provide them with a lower tax.
Taxpayers can file as Head of Household if they meet all of the following:
   •    Unmarried or “considered unmarried” on the last day of the tax year.
   •    Paid more than one-half the cost of keeping up a home for the tax year.
   •    A “qualifying person” lived with you in your home for more than one-half of the year,
        with exceptions provided for temporary absences, or if the qualifying person is your
        dependent parent.
To be “considered unmarried” for Head of Household, you must meet all of the following:
   •    File a separate return from your spouse.
   •    Pay more than one-half the cost of keeping up your home for the tax year.
   •    Spouse did not live in your home during the last 6 months of the tax year.
   •    Your home was the main home of your child, stepchild, or adopted child for more than
        one-half of the tax year or was the main home of your foster child for the entire year.
   •    You are able to claim an exemption for the child except in certain situations involving
        custody agreements in which you have agreed not to claim the exemption.




                                                                                             Page 19
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
 Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests

                                                                     Appendix VII


              Management’s Response to the Draft Report




                                                                            Page 20
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests
 Provide Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests




                                                                            Page 21
